<html>
<title> - MEMORIAL ADDRESSES AND OTHER TRIBUTES HON. JIM WRIGHT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


.                                    
                        HON. JIM WRIGHT
                                   
                               1922 -2015






                               
                               
                               
                               
                               Jim Wright

                      LATE A SPEAKER OF THE HOUSE

                                 AND A

                       REPRESENTATIVE FROM TEXAS

                       
                                                                   
                         MEMORIAL ADDRESSES AND
                             OTHER TRIBUTES                           
                                              

                            IN THE CONGRESS OF
                            THE UNITED STATES

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                    
                                    
                                    
                                    
                                    
                                    
                                    
                                                                       
                                    
                                    
                                    Jim Wright


                               Memorial Addresses and

                                   Other Tributes

                        HELD IN THE HOUSE OF REPRESENTATIVES

                                OF THE UNITED STATES

                          TOGETHER WITH A MEMORIAL SERVICE

                                     IN HONOR OF

                                     JIM WRIGHT

                           Late a Speaker of the House

                                       AND A

                                Representative from Texas



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 



                                    

                    One Hundred Fourteenth Congress

                             First Session

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

   

                            Compiled under the direction

                                       of the

                             Joint Committee on Printing
                                      
                                      CONTENTS
             Biography.............................................
                                                                      v
             Proceedings in the House of Representatives:
                Tributes by Representatives:
                    Boehner, John A., of Ohio......................
                                                                      4
                    Burgess, Michael C., of Texas..................
                                                                      3
                    Foxx, Virginia, of North Carolina..............
                                                                      4
                    Johnson, Eddie Bernice, of Texas...............
                                                                      3
             Memorial Service......................................
                                                                      7
                 

                                      BIOGRAPHY

               The insights gained by Speaker Jim Wright in his long 
             and tumultuous career can shed light on many of the 
             problems we face in the world today. A Member of Congress 
             for 34 years, Mr. Wright served with eight American 
             Presidents. He was chosen by his colleagues as Speaker of 
             the U.S. House of Representatives, the highest honor 
             Members can bestow upon one of their number. He met and 
             came to know many heads of state including Mikhail 
             Gorbachev and several of the current leaders of Middle 
             Eastern nations.
               As majority leader, Mr. Wright helped President Carter 
             achieve the historic peace agreement between Egypt and 
             Israel. He was the principal advocate in Congress for an 
             energy policy to reduce our Nation's dependence on Middle 
             Eastern oil.
               As House Speaker, Mr. Wright presided over the historic 
             100th Congress, considered the most productive in a 
             generation. Under his leadership, Congress passed landmark 
             legislation on such major issues as shelter for the 
             homeless, catastrophic medical assistance for the elderly, 
             safer highways and bridges, fast-track trade negotiating 
             authority and U.S. competitiveness, quality education, 
             clean water, and affordable housing. That 100th Congress 
             fashioned the beginnings of an effective war on drugs and 
             passed the Civil Liberties Act of 1988 as a step to 
             addressing the wrongs done to Japanese-Americans in World 
             War II.
               Jim Wright was born in Fort Worth, TX, a city he 
             represented in Congress from 1955 through June 1989. He 
             completed public school in 10 years and was on his way to 
             finishing college within 3 years when Pearl Harbor was 
             attacked. Following enlistment in the Army Air Corps, Mr. 
             Wright received his flyer's wings and a commission at 19. 
             He flew combat missions in the South Pacific and was 
             awarded the Distinguished Flying Cross and the Legion of 
             Merit.
               After the war, Mr. Wright was elected to the Texas 
             Legislature at 23. At 26, he became the youngest mayor in 
             Texas when voters chose him to head their city government 
             in Weatherford, his boyhood home.
               Elected to Congress at 31, he served 18 consecutive 
             terms and authored major legislation in the fields of 
             foreign affairs, economic development, water conservation, 
             aviation, education, and energy. Mr. Wright received 
             worldwide recognition for his efforts to bring peace to 
             Central America.
               Jim Wright served 10 years as majority leader before 
             being sworn in as Speaker on January 6, 1987. He was 
             reelected as Speaker in January 1989.
               A prolific writer, he authored numerous books: ``You and 
             Your Congressman,'' ``The Coming Water Famine,'' ``Of 
             Swords and Plowshares,'' ``Reflections of a Public Man,'' 
             ``Worth It All: My War for Peace,'' and ``Balance of 
             Power: Presidents and Congress from the Era of McCarthy to 
             the Age of Gingrich.'' He has also written articles for 
             major magazines and newspapers.
               Mr. Wright also served as senior political consultant to 
             American Income Life Insurance Company. He wrote a 
             frequent newspaper column and occasionally appeared on 
             network TV news programs. Speaker Wright donated his 
             papers and memorabilia to the Texas Christian University 
             Library in Fort Worth, TX. He was also a distinguished 
             lecturer at TCU where he taught a course entitled, 
             ``Congress and the Presidents.''
                                           

                 

                                 MEMORIAL ADDRESSES

                                         AND

                                   OTHER TRIBUTES

                                         FOR

                                     JIM WRIGHT
                 

                     Proceedings in the House of Representatives
                                                  Tuesday, May 12, 2015
               Mr. BURGESS. Mr. Speaker, I offer a privileged 
             resolution (H. Res. 254) and ask for its immediate 
             consideration.
               The Clerk read the resolution, as follows:
                                     H. Res. 254
               Resolved, That the House has learned with profound 
             sorrow of the death of the Honorable James Claude Wright, 
             Jr., former Member of the House for 18 terms and Speaker 
             of the House of Representatives for the One Hundredth and 
             One Hundred First Congresses.
               Resolved, That in the death of the Honorable James 
             Claude Wright, Jr. the United States and the State of 
             Texas have lost a valued and eminent public servant and 
             citizen.
               Resolved, That the Clerk communicate these resolutions 
             to the Senate and transmit a copy thereof to the family of 
             the deceased.
               Resolved, That when the House adjourns today, it adjourn 
             as a further mark of respect to the memory of the 
             deceased.

               The resolution was agreed to.
               A motion to reconsider was laid on the table.

               Ms. EDDIE BERNICE JOHNSON of Texas. Mr. Speaker, I rise 
             today with great pleasure to pay tribute to the life and 
             legacy of former Speaker of the House James ``Jim'' 
             Wright, who passed away on Wednesday, May 6, at the age of 
             92. Speaker Wright served in Congress for more than three 
             decades and left an indelible legacy as chairman of the 
             House Public Works Committee. He was elected by his peers 
             as Speaker in 1987.
               Jim Wright was born in Fort Worth, TX, the son of a 
             traveling salesman. He was educated at Weatherford College 
             and the University of Texas at Austin. Jim Wright 
             dedicated his life to serving the public. He bravely 
             served in the U.S. Army Air Forces during World War II and 
             was awarded the Distinguished Flying Cross for flying 
             combat missions in the South Pacific. Subsequently, he was 
             elected to the Texas House of Representatives in 1946. He 
             served as mayor of Weatherford, TX, from 1950 to 1954. He 
             was elected to the U.S. House of Representatives in 1954 
             and was reelected 16 times.
               Speaker Wright was a visionary who served the people of 
             Fort Worth and this Nation well. He is deserving of this 
             tribute. Because of his leadership, the House experienced 
             one of its most prolific periods. Speaker Wright 
             demonstrated his skill as a political leader and master 
             legislator by shepherding extraordinarily complex 
             legislation through the House. He understood that the 
             business of legislating and good politics required great 
             skill in the art of compromise.
               Speaker Wright never backed down from a challenge, and 
             even after leaving office, he continued to serve the 
             public diligently. I was always able to consult with 
             Speaker Wright regarding difficult legislation, and he 
             never failed to provide thoughtful and principled insight.
               Our country has lost one of its finest statesmen, and I 
             have lost a close personal friend whose wisdom, dignity, 
             and knowledge of the legislative process was 
             unquestionably enviable. He is among the most influential 
             Speakers in the history of the House of Representatives.
               Mr. Speaker, Jim Wright is an unforgettable public 
             servant and leader. A man fueled by passion and concern 
             for others, he set the bar high for his successors. He is 
             survived by his wife, Betty, and four children. I stand 
             today to honor former Speaker of the House, Jim Wright, 
             and to thank him for his work in service to the people of 
             Texas and throughout this great Nation. He left a powerful 
             legacy that will live for generations.

               Ms. FOXX. Mr. Speaker, I move that the House do now 
             adjourn.
               The motion was agreed to; accordingly (at 10 o'clock and 
             16 minutes p.m.), under its previous order and pursuant to 
             House Resolution 254, the House adjourned until tomorrow, 
             Wednesday, May 13, 2015, at 10 a.m. for morning-hour 
             debate, as a further mark of respect to the memory of the 
             late Honorable James Claude Wright, Jr.
                                                Wednesday, May 13, 2015
               Mr. BOEHNER. Mr. Speaker, the Honorable James Claude 
             Wright, former Speaker of the House of Representatives, 
             died on May 6, 2015. On that day, I issued the following 
             statement:

               The whole House mourns the passing of Speaker Jim Wright 
             of the State of Texas. We remember Speaker Wright today 
             for his lifelong commitment to public service, from flying 
             combat missions over the South Pacific to fighting for 
             Fort Worth on the House floor. Speaker Wright understood 
             as well as anyone this institution's closeness to the 
             people, calling the House ``the raw essence of the 
             Nation.'' It is in this spirit that we send our deepest 
             condolences to his family and community.

               The House took several steps to honor the former 
             Speaker. The Speaker's chair on the rostrum was draped in 
             black--the same mark of respect first made upon the death 
             of Michael Kerr of Indiana, Speaker of the House in the 
             44th Congress, and most recently for Thomas Foley. The 
             Speaker's gavel rested on the rostrum during this period. 
             Outside the House Chamber, Speaker Wright's official 
             portrait in the Speaker's lobby was draped in black. A 
             book of condolences was made available for the 
             remembrances of friends and colleagues. On May 12, 2015, 
             the House adopted House Resolution 245, expressing the 
             condolences of the House upon his death, and the House 
             adjourned on that day as a further mark of respect to his 
             memory. A funeral was held on May 11, 2015, at First 
             United Methodist Church in Fort Worth, TX. The following 
             is a transcript of those proceedings: [The transcript may 
             be found on page 11].
             [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
             
				S p e a k e r  J i m  W r i g h t

                D e c e m b e r   2 2,   1 9 2 2 - May   6,   2 0 1 5
              
              A Service of Thanksgiving to God for the Life and Legacy 
                                         of

                              James Claude Wright, Jr.
                            December 22, 1922-May 6, 2015





PRELUDE

Ms. Peggy Graff

PROCESSIONAL

``Joyful, Joyful, We Adore Thee''

CALL TO WORSHIP

Dr. Tim Bruster

PRAYER

PSALM 23 (In Unison)

                   The Lord is my shepherd, I shall not want. He maketh 
                   me to lie down in green pastures: He leadeth me 
                   beside the still waters. He restoreth my soul: He 
                   leadeth me in the paths of righteousness for His 
                   name's sake. Yea, though I walk through the valley 
                   of the shadow of death, I will fear no evil: for 
                   thou art with me; Thy rod and thy staff they comfort 
                   me. Thou preparest a table before me in the presence 
                   of mine enemies; Thou anointest my head with oil; my 
                   cup runneth over. Surely goodness and mercy shall 
                   follow me all the days of my life; and I will dwell 
                   in the house of the Lord forever.



HEBREW SCRIPTURES

Psalm 46



Micah 6:6-8

SOLO

Mr. Christopher Auchter



``Let There Be Peace on Earth''

TRIBUTES

Mr. Martin Frost



Mr. Bill Alexander



Mr. Paul Driskell

CONGREGATIONAL HYMN

No. 437



``This is My Song''

NEW TESTAMENT SCRIPTURES

I Corinthians 13



Luke 6:27-36

SERMON

PRAYER

BENEDICTION

Jim's Great Grandchildren

CONGREGATIONAL

    HYMN

``When the Roll is Called Up Yonder''

                   When the trumpet of the Lord shall sound,

                   and time shall be no more,

                   And the morning breaks, eternal, bright and fair;

                   When the saved of earth shall gather over on the 
                   other shore,

                   And the roll is called up yonder, I'll be there.


                   Refrain:

                   When the roll is called up yonder,

                   When the roll is called up yonder,

                   When the roll is called up yonder,

                   When the roll is called up yonder, I'll be there.


                   On that bright and cloudless morning

                   when the dead in Christ shall rise,

                   And the glory of His resurrection share;

                   When His chosen ones shall gather to their home 
                   beyond the skies,

                   And the roll is called up yonder, I'll be there.


                   Refrain


                   Let us labor for the Master from the dawn till 
                   setting sun,

                   Let us talk of all His wondrous love and care;

                   Then when all of life is over, and our work on earth 
                   is done,

                   And the roll is called up yonder, I'll be there.


                   Refrain



RECESSIONAL

``For All the Saints''



               Please join the family for a reception in Wesley Hall 
                         immediately following the service.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
             

                 The funeral procession will depart at 4:00 for the
                       interment at City Greenwood Cemetery in
                    Weatherford. If you are planning to join the
                   procession and are parked at Farrington Field,
                     please take the shuttle to the parking area
                    and return to the church for the procession.
             The Reverend Dr. Tim Bruster (First United Methodist 
             Church, Fort Worth, Texas). Please be seated.
               Hear these words of Jesus: I am the resurrection and the 
             life. Those who believe in me, even though they die, will 
             live, and everybody who lives and believes in me will 
             never die.
               Christ said, ``I am alpha and omega, the beginning and 
             the end. Do not be afraid. I am the first and the last and 
             the living one. I was dead, and now I am alive, forever 
             and ever.
               Friends, we have gathered here to praise God and to draw 
             comfort from our faith and to give thanks as we celebrate 
             the life of Jim Wright.
               We come together in grief, of course, acknowledging our 
             human loss. But we also come together in gratitude, 
             acknowledging and giving thanks for his life and his 
             legacy and for everything in his life that was a 
             reflection of the love and the grace of God.
               May God grant us grace in this time that in pain we may 
             find comfort, in sorrow we may find joy, and in death, 
             resurrection.
                Let us pray.
               Our gracious and loving God, we bow in awe of Your 
             greatness and Your love. You have spoken words of life to 
             us in so many ways. You've given form and beauty to our 
             world, and all of creation sings Your praise.
               You have given us one another to love and receive love, 
             a reflection of Your gracious love for us. And You have 
             spoken to us in the words of Scripture and in Jesus, the 
             Word made flesh, the Author of life.
               As You speak to us now, in this service of worship, help 
             us once again to hear Your words of life as we celebrate 
             the life and legacy of Your servant, Jim.
               In Jesus' name.
               Amen.
               I invite you now to turn in your worship guide to the 
             words of the 23d Psalm as we say them together:
               ``The Lord is my shepherd, I shall not want.
               ``He maketh me to lie down in green pastures: He leadeth 
             me beside the still waters.
               ``He restoreth my soul: He leadeth me in the paths of 
             righteousness for His name's sake.
               ``Yea, though I walk through the valley of the shadow of 
             death, I will fear no evil: for Thou art with me; Thy rod 
             and Thy staff they comfort me.
               ``Thou preparest a table before me in the presence of 
             mine enemies; Thou anointest my head with oil; my cup 
             runneth over.
               ``Surely goodness and mercy shall follow me all the days 
             of my life; and I will dwell in the house of the Lord 
             forever.''
               The words of Psalm 46:
               ``God is our refuge and strength, a very present help in 
             trouble. Therefore we will not fear, though the Earth 
             should change, though the mountains shake in the heart of 
             the sea; though its waters roar and foam, though the 
             mountains tremble with its tumult.
               ``There is a river whose streams make glad the city of 
             God, the holy habitation of the Most High. God is in the 
             midst of the city; it shall not be moved; God will help it 
             when the morning dawns. The nations are in an uproar, the 
             kingdoms totter; He utters His voice, the Earth melts. The 
             Lord of hosts is with us; the God of Jacob is our refuge.
               ``Come, behold the works of the Lord; see what 
             desolations He has brought on the Earth. He makes wars 
             cease to the end of the Earth; He breaks the bow, and 
             shatters the spear; He burns the shields with fire. `Be 
             still, and know that I am God! I am exalted among the 
             nations; I am exalted in the Earth.' The Lord of hosts is 
             with us; the God of Jacob is our refuge.''
               The words of the prophet Micah:
               `` `With what shall I come before the Lord, and bow 
             myself before God on high? Shall I come before Him with 
             burnt offerings, with calves a year old? Will the Lord be 
             pleased with thousands of rams, with ten thousands of 
             rivers of oil? Shall I give my firstborn for my 
             transgression, the fruit of my body for the sin of my 
             soul?'
               ``He has told you, O mortal, what is good; and what does 
             the Lord require of you but to do justice, and to love 
             kindness, and to walk humbly with your God?''
               God speaks to us in the reading of Scripture.

             The Honorable Martin Frost (U.S. House of Representatives, 
             24th District of Texas, 1979-2005). In the words of 
             President John F. Kennedy about Jim Wright, ``No city in 
             America was better represented in Congress than Fort 
             Worth.''
               I'm here today to speak on behalf of the scores of 
             people--many of whom, Texans--that Jim Wright helped along 
             the way with their careers. He was our mentor, our 
             colleague, and our friend. We were better public servants 
             because of Jim Wright, and many of those Members, past and 
             present, Democrat and Republican, are here with us today 
             to honor Jim.
               In a minute, I'm going to speak about what Jim did for 
             my career, but it really speaks volumes for what he did 
             for a lot of others, too.
                Jim Wright was an extraordinary leader both for the 
             people of Fort Worth and for our Nation. He always 
             remembered the people who sent him to Washington and 
             worked tirelessly to make our country even better every 
             day he was in office. Few Congressmen in recent times have 
             had a greater impact than our friend Jim Wright.
               I met Jim Wright 57 years ago, in 1958, when he was a 
             young Congressman beginning his second term and I was a 16 
             year old. Jim was the guest speaker at the Temple Beth-El 
             youth group in the basement of the old synagogue building 
             on West Broadway, near downtown.
               I had never met a national politician before, and he 
             made a deep impression on me that day. I remember to this 
             day some of what he said, and more of that a little bit 
             later.
               Seven years later, in 1965, I showed up in Washington as 
             a young reporter covering Congress for a magazine, and the 
             first thing I did was to go see my hometown Congressman, 
             Jim Wright. Jim and his chief of staff, Marshall Lynam, 
             were very helpful to this young reporter, suggesting who I 
             should get to know on congressional committee staffs. 
             Three years later, in summer 1968, Jim helped me get a job 
             on Hubert Humphrey's national Presidential campaign staff 
             while I was a student at Georgetown Law School.
               The last two people I saw before I headed back to Texas 
             following graduation in 1970 were Jim and Marshall. I told 
             them that I hoped to come back to DC some day as a 
             Congressman--in a neighboring district. I had no intention 
             of ever running against Jim Wright.
               Fast forward to 1976 when I was north Texas coordinator 
             for the Carter-Mondale Presidential campaign. The Carter 
             campaign wanted to come to Texas the weekend before the 
             general election when carrying Texas was still in doubt. 
             They wanted to only stop in Dallas. As a Fort Worth boy, I 
             told them they also had to come to Cowtown and that I knew 
             that local Congressman Jim Wright would put on one hell of 
             a show for them, and that's exactly what Jim did. He 
             filled the downtown convention center with more than 
             10,000 people early in the afternoon that Sunday. It made 
             great television, and Carter became the last Democratic 
             Presidential candidate to carry Texas.
               Shortly after that election, Jim Wright became House 
             majority leader by one vote in a hotly contested secret 
             ballot election. He certainly knew how to count.
               Two years later, I was elected to Congress from the 24th 
             District, which, in fact, adjoined the 12th District that 
             Jim represented. Jim went to Speaker Tip O'Neill and made 
             sure I was named to the powerful House Rules Committee, an 
             appointment that almost never went to a freshman Member.
               From that day on, Jim Wright and I became both 
             colleagues and friends. He was my mentor during the 11 
             years we served together, and I learned an enormous amount 
             just watching him in action. When I inherited the Black 
             community in southeast Fort Worth following the 1991 
             redistricting, I only used one picture in my mailing: a 
             photo of Jim Wright and me. There wasn't anything else the 
             voters in that part of my district needed to know.
               They continued to be my base for the remainder of my 26 
             years in Congress, and just to make sure people in Fort 
             Worth knew that I had strong ties to Fort Worth, even 
             though I now lived in Dallas, he used to tell anyone who 
             would listen that I went to high school in his district at 
             Fort Worth's Paschal, and he went to high school in my 
             district at Dallas' Adamson.
               When Jim taught a course at TCU on Congress for 20 years 
             after leaving the Congress, I was proud to be a guest 
             lecturer for him every single year. The last time I saw 
             Jim was in spring 2014, when I was working on a book about 
             Congress. We visited for about an hour in his office at 
             TCU. His body was frail, but his mind was as sharp as 
             ever.
               I learned how to be an effective Congressman by 
             observing Jim as a colleague and as a junior partner on a 
             variety of matters that helped Fort Worth. He never forgot 
             the people who sent him to Washington. He was a stalwart 
             in his work on behalf of defense workers at what is now 
             Lockheed Martin, which was General Dynamics, and Bell 
             Helicopter in Fort Worth.
               He played a significant role in the decision by American 
             Airlines to move its corporate headquarters from New York 
             to the Metroplex, and he was a strong supporter of DFW 
             Airport, the jobs magnet for this part of the State.
               We worked together--and by the way, he did the heavy 
             lifting--to convince the railroad to make its right-of-way 
             available for the Trinity River Express connecting Fort 
             Worth and Dallas. No request from anyone in Tarrant County 
             was too small to win Jim's help.
               Also, Jim's role in promoting the careers of promising 
             African Americans from Fort Worth was of great 
             significance. He brought Lorraine Miller, a young woman 
             from the southeast side of Fort Worth, to Washington to 
             work on his staff. Years later, she became the first 
             African American to serve as Clerk of the U.S. House and 
             recently served as interim national president of the 
             NAACP. Just a few years ago, Jim played a key role in the 
             election of Mark Veasey, who became the first Black 
             Congressman from Fort Worth.
               One of Jim's greatest strengths was molding a disparate 
             group of Democrats into an effective majority when he 
             became Speaker. During his first year as Speaker in 1987--
             and Tony and Steny, you will remember this--Congress 
             passed all 13 appropriation bills before the start of the 
             new fiscal year on October 1, something that is almost 
             never done today.
               I remember his response to a question from the audience 
             at that speech at Temple Beth-El in 1958. He was asked 
             what a Congressman does when he feels one way about an 
             issue and his district feels the other way. He responded 
             that the job of a Congressman was to reflect the views of 
             his district as often as he could. He then added that he 
             reserved a small percentage of votes, perhaps 10 percent, 
             to vote against the majority of his district if he felt 
             something was vital in the national interest. He then 
             added that it was his responsibility to go back to his 
             constituents to explain his vote and hopefully convince 
             them that he was right and they were wrong. He added that 
             if a Congressman couldn't successfully do that, he 
             wouldn't be reelected, and that was as it should be.
               He did a very good job following his own advice. I did 
             the same and found that he was exactly correct.
               Fort Worth is a great city today because of Jim Wright. 
             We all owe him an enormous debt of gratitude. We will 
             never see his like again.

             The Honorable Bill Alexander (U.S. House of 
             Representatives, First District of Arkansas, 1969-1993). 
             Jimmy and Ginger, Kerry, Lisa, and all the Wright family, 
             I feel that we are kin.
               To all of his friends who are here today, I join you in 
             tribute to one of my dearest friends.
               I kept up with Jim through the years, even after he left 
             Washington and returned to Texas; and following his 
             recovery from surgery, I gave him a call one day, and he 
             invited me to come to Fort Worth. So my son and I--Alex, 
             who is here--with his sister Ashley, who came to TCU at a 
             later time, boarded our plane and came to DFW. At those 
             days, Jim was driving, and so he met us at the airport. 
             I'd never been outside of DFW before, so I didn't know 
             what to expect.
               As we left the terminal, I noticed all of the concrete 
             infrastructure that supports the airport: the entrance 
             ramps, the exit ramps, the overhead bridges, the long ride 
             to the interstate. I never saw so much concrete in all my 
             life. I turned to Jim, who at one time, as most of you 
             know, was chairman of the Public Works Committee, and I 
             said to him, ``Jim, how much money did the Public Works 
             Committee spend on this airport?'' He looked at me and 
             rolled his brow and lifted his big bushy eyebrows and he 
             said to me, ``Not a penny more than the law allowed.''
               Jim was probably one of the most successful chairmen in 
             Congress; and with that success, people encouraged him, 
             and he ran for majority leader. As all of you probably 
             followed in the news, it was a very contentious race, and 
             on the day of the vote, I was appointed to be a judge. So 
             after the votes were cast, I adjourned with the other 
             members of the election group and counted the votes. We 
             counted them twice, and Jim won by one vote.
               I got up from the chair in the Speaker's lounge--the 
             Speaker's lobby, we call it--rushed through the door to 
             the House Chamber, and Jim was sitting on the second row 
             on the Democratic side in the Hall of the House. I rushed 
             up to him and I said, ``Jim, you won.'' He was surprised 
             because no one knew the outcome of that election. He 
             looked at me, and he said, ``Are you sure?'' I said, 
             ``Jim, I counted the votes, and if you hadn't won, Phil 
             Burton said he would send me to Alaska.''
               Following in the footsteps of Sam Rayburn and Lyndon 
             Johnson, Jim asserted leadership in Congress at a time of 
             confusion in the Senate and the White House, demonstrating 
             a unique ability to command our Nation's political 
             resources to get things done. This went across the aisle 
             to the Republicans and even down Pennsylvania Avenue to 
             the White House, which is a million miles away if you 
             serve in Congress sometimes.
               Jim Wright had fought in World War II to defend the 
             values of the Greatest Generation, as Tom Brokaw describes 
             this generation, a generation of men and women united in 
             common purposes of family, country, duty, honor, courage, 
             and service. During World War II, he flew many combat 
             missions. I haven't really been able to discern exactly 
             how many yet because there's such a debate over it. Maybe 
             somebody will tell me before I go back to Washington. He 
             served as a bombardier and was awarded the Distinguished 
             Flying Cross for his bravery.
               Jim believed that government should serve the people as 
             well as the economic interests, which also must be 
             represented, and provide Federal assistance to communities 
             and States like Arkansas, where I'm from. It's in need of 
             capital development in order to provide infrastructure to 
             try to attract industry and jobs for our people. That was, 
             in his view, providing building blocks for the foundation 
             of the economic development that benefits all of us. All 
             you've got to do is look around in Texas a little bit to 
             find out if it works.
               The criticism of Speaker Wright, which is in the news, 
             instead of all of the accomplishments that we know he 
             achieved, his strong leadership came from a changing 
             Congress. Some of my former colleagues from Congress are 
             here today, and they know what I'm talking about.
               Beginning with the 1968 election, which was my first 
             election to Congress, the ideals and values of the 
             Greatest Generation began to evolve. A Congress run by 
             Southern Democrats, who chaired mostly the important 
             committees in the Congress, was gradually replaced by a 
             younger generation of Congressmen and Senators, many of 
             them in the other party. When he left Congress, even his 
             political enemies often remarked that, had he stayed in 
             Congress, he would have been the greatest Speaker since 
             Henry Clay.
               His time as Speaker laid down historic markers. He was 
             the last great figure in Congress to keep alive the idea 
             of development--that came from the New Deal--that would 
             help our economy.
               After him came what we call Reaganomics and the tidal 
             wave of polarization of our two political parties and the 
             continuing mindless cannibalism which we can still see 
             evident today between the parties and even in the parties 
             in Congress.
               Criticism of Speaker Wright's forceful leadership came 
             from Republicans and Democrats alike; although, at the 
             time he stepped down, the principal antagonists came from 
             within our own party. I was there, and I know who they 
             are.
               What followed was a profound change in the power 
             structure in Congress, shifting away from the power and 
             authority lodged in a handful of key Southern committee 
             chairmen to a dispersion of power among proliferating 
             committees and subcommittees, encouraging intensifying 
             rivalries and even political fratricides throughout the 
             House. His departure marked the end of an era when 
             Southern Democrats dominated in both the House and the 
             Senate, along with a gradual evolution of the Congress 
             toward social issues.
               It marked the transition from Southern leadership of 
             Congress to a growing concentration of power of the 
             Democratic Party in our Nation's biggest cities, many of 
             them in the North, opening a widening rift between our 
             Nation's small towns and rural areas and the political 
             interests of the inner cities. The way was opened for 
             lobbyists to shift attention away from schools and roads 
             and bridges and water systems that helped our people to 
             special interests of Wall Street banks and a commercial 
             agenda.
               A fluent speaker of Spanish, he took the initiative to 
             intervene in the political crisis in Nicaragua and crafted 
             peace talks that laid the foundation for elections. When I 
             assisted him in this so-called ``junket,'' in his endeavor 
             I found that what we tried to do generated much 
             consternation among President Reagan's White House staff. 
             Later, another great Texan, James Baker, observed that 
             what Jim Wright did with his intervention in Nicaragua 
             turned the corner for that nation and helped the United 
             States and Nicaragua to come to better terms with one 
             another.
               Jim Wright was not only a master of the political 
             structure and the rules in Congress, he also was an 
             author, a professor. He lectured at Texas Christian 
             University with eagerness to inspire and guide our 
             Nation's youth.
               In the tradition of Sam Houston and Sam Rayburn, Jim 
             Wright was a giant. I was his chief deputy whip in the 
             Congress, the worst job in the House of Representatives, 
             but it was worth all the knocks and the cuts and the 
             bruises and the criticism that I endured to fight for the 
             values established by the Greatest Generation until the 
             ideals were changed by a new breed of voter who believes 
             that Washington is not a solution, rather, Washington is 
             the problem.
               He was my dear friend, and I stood with him in every 
             fight for the values that won World War II and provided 
             the building blocks and foundation for the greatest 
             economy on Earth.
               God bless Jim Wright.

             Paul Driskell (Special Assistant, Majority Leader Jim 
             Wright). Martin, Bill, Betsy, Mike, Kenneth, Mr. Leader, 
             Steny Hoyer--the one man in this sanctuary today who knows 
             the full weight and measure and the responsibilities of 
             the job this prince of peace executed so beautifully for 
             so many years. Dear Steny, thank you for your presence 
             today. How very special, how honored he would be, how much 
             he would love this congregation today. This is a 
             delegation of community builders.
               Mr. Wright loved Sam Rayburn dearly, and he often quoted 
             him; and of course many people wondered why Mr. Rayburn 
             went back to Bonham, TX, after announcing he was going to 
             leave the House, and Rayburn's answer was simple, ``Bonham 
             is a place where people know it when you're sick, and 
             where they care when you die.''
               You have validated Jim Wright's recitation of that 
             quote, all of you today, by honoring him in coming here. 
             You knew he was ill, and you cared that he died. How he 
             would celebrate you. How he must be enjoying this. He 
             loved people of accomplishment. He loved people who 
             contributed and built.
               Mr. Rayburn used to always say, ``A jackass can kick a 
             barn down; it takes a carpenter to build one.'' It's no 
             accident that our Lord was fathered by a carpenter--and 
             parented by a carpenter in his early years.
               I'd like to give you a sense of Speaker Wright, Jim 
             Wright, and my friend. It may be unique. As I have thought 
             about him so much and as I visited him in those final 
             days, things came to me that I would have never imagined. 
             He was, in fact, the first gifted multitasker. Now, if you 
             know anything about Jim, he despised anything to do with 
             technology, but he was a multitasker. Let me explain what 
             I mean.
               February 7, 1985, after about 30 days, some of the 
             people in this room--Tony, John--had been working 
             diligently because Mr. O'Neill had told us privately he 
             was going to retire. So we were trying to collect the 
             requisite number of votes for him to become Speaker of the 
             House 2 years out.
               February 7, 1985, 11 o'clock in the morning, a national 
             press conference was held in the office that Steny Hoyer's 
             offices are in today. He met the national press. He was 
             surrounded by his colleagues. He was surrounded by people 
             who loved him and wished well for him, and he made the 
             announcement that he had achieved the requisite number of 
             votes to capture his dream, to be Speaker of the House. He 
             put at peace, if you will, a body that's not given to 
             peace easily about the next years and how things would 
             follow.
               Fifteen minutes later, he grabbed me by the arm and 
             escorted me and my wife, Donna, up the back stairs with 31 
             other people to the House Chaplain's office where Chaplain 
             Ford married us at Henry Clay's desk, the Great 
             Compromiser. Then, he walked back downstairs with us. We 
             had a reception in the office. He pulled Donna and me 
             aside and he said, ``I only have two things to tell you 
             two: Paul, always hold her hand, and never go to bed 
             mad.''
               Mr. Speaker, sometimes you set the bar too high. I have 
             removed pillows from my bed so as not to elevate the 
             temptation for Donna to smother me.
               There are so many things privately that I loved about 
             him and that we shared. He had a passionate love for 
             boxing. He knew boxing like Nat Fleischer, the famous 
             author who recorded almost everything of significance 
             about American heavyweight boxing. We went to a fight. We 
             went to Golden Gloves. We went to the Olympic trials. We 
             went to tons of professional fights. It was like going to 
             that fight with Nat Fleischer, and he would be sitting 
             there and he would be reciting to you the ring scores of 
             the Firpo-Dempsey fight. He knew every hobby and interest 
             he had, he wanted to know everything there was to know 
             about it. If you ever saw the roses that he cultivated, 
             you'd understand that in spades. He was a gifted 
             horticulturist. He was a great teacher.
               Kay, you and I sat just about where Steny was sitting 2 
             years ago, 2\1/2\ years ago, and you told me how he taught 
             you and Ginger, Jenny, and Lisa about God. In fact, he 
             used a wagon wheel and said that was the universe and God 
             was, indeed, the hub; and the spokes represented the 
             people, and, of course, the rim, where all the damage and 
             impact takes place, was the furthest from God. He 
             admonished you that it was your job, it was your 
             responsibility, it was a testament of your faith to move 
             closer down those spokes because you would be closer to 
             more people, and as you were closer to more people, you'd 
             be closer to God. What a gift.
               I've often wondered, and I think everyone in this 
             sanctuary today wonders, why God lets us see certain 
             things at certain times. It seems rather odd. Last week, 
             just the day before his passing and only a few days after 
             my last visit with him, there was a documentary on about 
             George Foreman. I happened to turn it on the other night. 
             George Foreman, the famous heavyweight, struck fear and 
             terror in everyone's heart--undefeated, knocked poor Joe 
             Frazier down eight times. The interviewer asked him a 
             question. He said, ``Who was the greatest champion of all 
             time in your estimation?'' George Foreman didn't hesitate. 
             He said, ``Muhammad Ali.'' That stunned the interviewer.
               Muhammad Ali had defeated George Foreman in Zaire, 
             Africa, and usually when a boxer loses to another one, it 
             was a lucky punch or you're just a little better that 
             night, not the greatest champion that ever lived. He 
             didn't hesitate. He said, ``Muhammad Ali.''
               The interviewer said, ``Why? Why do you choose him?'' He 
             said, ``Well, if you saw the fight in the eighth round, he 
             hit me twice in the face.'' If any of you remember or 
             happened to have seen it, George Foreman began to 
             cartwheel. He began to turn and fall to the floor. As he 
             was falling, Muhammad Ali, as all boxers are trained all 
             their life to do, cocked his arm to hit him with what is 
             known as the ``killing punch.''
               George Foreman said, ``I looked up out of my left eye, 
             just partially conscious, knowing I was going to the 
             floor, and he never threw that punch. So for me, he's not 
             the greatest champion that ever lived for the punches he 
             threw; it's for what he didn't do. It's the punch he 
             didn't throw.''
               The very people who besmirched and impugned this prince 
             of peace at the end of his public career, when they fell 
             on hard times and they fell by the sword they had so 
             recklessly wielded, not once in private--and certainly 
             never in public--did Jim Wright throw that punch. He could 
             not retaliate. He didn't just talk Christian forgiveness; 
             he lived it. His higher calling at that time was to find a 
             way to inspire students at TCU to engage in public service 
             and to think about the possibilities of what they could 
             build, like the beautiful people in this room today. He 
             didn't throw that punch.
               I was 15 years old, standing in front of a black and 
             white television, and I watched Robert Kennedy say, ``When 
             he shall die, take him and cut him out into stars, and he 
             shall make the face of Heaven so fine that all the world 
             will be in love with night and pay no worship to the 
             garish Sun.''
               I didn't know at 15 just what that meant. At 65, I 
             marvel how Bobby Kennedy could have mustered the strength 
             and the insight to say that about the brother he loved, in 
             some ways his best friend, and, oh, by the way, in 
             passing, the President of the United States.
               I understood because of this church and because of my 
             association with him that all of us have a spark of 
             divinity. We are all made in God's image, and that spark 
             is there, but what I didn't understand was that there are 
             a special few who possess a flame, a torch. It's bigger. 
             It's more committed. It's something we can appreciate. 
             It's not necessarily something we readily understand.
               It's not by accident that there's an eternal flame that 
             burns at John Kennedy's grave and why, for all the 
             accomplishments: the Peace Corps, the space program, all 
             of those things--no. That's part of it. That's why 
             millions go there to pay respects. The part of it is that 
             during the most sensitive time in our Nation's history, 
             when we were the closest to engaging in a nuclear 
             holocaust, when every adviser that that President had was 
             admonishing him to take advantage of the tactical and 
             strategic position we occupied for those precious few days 
             and strike Cuba with nuclear weapons, he didn't throw that 
             punch. We're all breathing good air and loving our friends 
             and conducting our lives because of that divine torch.
               The thing I think I will miss most is a private passion 
             that Jim had and I shared. He loved movies. The singular 
             thing that we really appreciated together was we happened 
             to think that Robert Duvall was the greatest American 
             actor that's ever lived.
               Jim's favorite movie was ``Tender Mercies,'' and my 
             favorite film was ``The Natural.'' In ``The Natural,'' 
             there's a scene--of course, all the ladies in here know 
             Robert Redford was the natural. He was Roy Hobbs, the 
             gifted baseball player. Robert Duvall was the cynical 
             sportswriter; Wilford Brimley was the crusty old coach.
               There's that beautiful soliloquy where the coach walks 
             in and he says--I mean, pardon me, Robert Duvall walks in 
             and says to the coach, ``Coach, who is this Roy Hobbs?'' 
             The coach turns on his heels and says, ``I don't know who 
             Roy Hobbs is. I just know he's the best there is and the 
             best there ever will be.''
               Jim Wright, you are the ``Natural.''
               There probably has never been a man in American history 
             who I can recall that so eloquently used the English 
             language. He helped those of us who only have sparks 
             appreciate the flame with his application of our language.
               It seems a shame that I can't find words in my language 
             to encompass all that he was, and yet he will always be. 
             Only in Spanish: Vaya con Dios--go and be with God. Light 
             of our land. Vaya con Dios, friend of my life.

             Reverend Bruster. I invite you to hear now the words of 
             the Apostle Paul from the first letter to the Corinthians, 
             chapter 13:
               ``If I speak in the tongues of mortals and of angels, 
             but do not have love, I am a noisy gong or a clanging 
             cymbal. And if I have prophetic powers, and understand all 
             mysteries and all knowledge, and if I have all faith, so 
             as to remove mountains, but do not have love, I am 
             nothing. If I give away all my possessions, and if I hand 
             over my body so that I may boast, but do not have love, I 
             gain nothing.
               ``Love is patient; love is kind; love is not envious or 
             boastful or arrogant or rude. It does not insist on its 
             own way; it is not irritable or resentful; it does not 
             rejoice in wrongdoing, but rejoices in truth. Love bears 
             all things, believes all things, hopes all things, endures 
             all things.
               ``Love never ends.''
               Paul ends that chapter with the words, ``And now faith, 
             hope, and love abide, these three; and the greatest of 
             these is love.''
               The words of Jesus in the Gospel of Luke, a sermon on 
             the plain:
               ``But I say to you that listen, Love your enemies, do 
             good to those who hate you, bless those who curse you, 
             pray for those who abuse you. If anyone strikes you on the 
             cheek, offer the other also; and from anyone who takes 
             away your coat, do not withhold even your shirt. Give to 
             everyone who begs from you; and if anyone takes away your 
             goods, do not ask for them again. Do to others as you 
             would have them do to you.
               ``If you love those who love you, what credit is that to 
             you? For even sinners love those who love them. If you do 
             good to those who do good to you, what credit is that to 
             you? For even sinners do the same. If you lend to those 
             from whom you hope to receive, what credit is that to you? 
             Even sinners lend to sinners, to receive as much again. 
             But love your enemies, do good, and lend, expecting 
             nothing in return. Your reward will be great, and you will 
             be children of the Most High; for He is kind to the 
             ungrateful and the wicked. Be merciful, just as your 
             Father is merciful.''
               Jim had a wonderful, quick wit as we all know. His 
             responses to glowing introductions illustrated that point. 
             Two years ago, when Cissy Day was introducing him to a 
             Sunday school class where he was about to speak, she told 
             a story at the end of her introduction of something that 
             he had done that was very kind and a note that he had 
             written to her that was a kind note that she treasured. 
             When he stood up then to speak, he looked over at her and 
             he said, ``I had forgotten how nice I used to be.''
               After a glowing introduction at another event, he said, 
             ``An event of this dimension is just terribly hard on 
             one's humility. Try as I might to look and sound humble, I 
             just can't quite pull it off.''
               Then he quoted Jesus: ``Let your light so shine before 
             others that they may see your good works and give glory to 
             your Father who is in Heaven.''
               He said, ``You know, when I read that, I realized he 
             doesn't say, `Let your light so shine so that others may 
             see your good works and think what a great guy.' '' Then 
             he went on to say, ``The purpose of good works is not to 
             get bragged on.'' Then he said this, ``But if I'm honest 
             with you, I guess I'm going to have to let you in on a 
             little personal confession. Being bragged on, I like it. I 
             eat it up.''
               On another occasion, he said after an introduction, 
             ``Undeserved as though an introduction like that is, 
             indeed I want you to know that I liked it. I liked every 
             word of it.''
               Then he said, ``There are two kinds of people who 
             appreciate flattery: men and women.''
               So since Jim made that confession, I guess it's OK that 
             we tell of his good works and that we laud him. I hope 
             that he would appreciate that we do it not just pointing 
             at Jim, but pointing at the source of all of that for Jim; 
             pointing not just to Jim, but beyond to the legacy that he 
             received from other people, and beyond Jim to his faith 
             and his commitment to Christ that guided his life.
               He leaves a great legacy, and our words hold up those 
             great attributes not to point just to Jim, but to also 
             point to his faith and commitment and the One in whom he 
             had faith and the One that he sought to follow, and also 
             to see Jim's life as an example to all of us.
               I want to think about that with you for just a few 
             minutes. Jim was an encourager. As he sought to be a 
             follower of Christ and as he put that into practice in his 
             life, he knew the importance of encouragement. He was an 
             encourager.
               In the Book of Acts, we meet a man named Joseph. He was 
             from Cyprus. But we don't know him as Joseph. We almost 
             never hear that. After his first introduction in the Book 
             of Acts, he's known by his nickname, and his nickname was 
             Barnabas. The disciples, the apostles, nicknamed him 
             Barnabas because Barnabas means ``son of encouragement.'' 
             He was an encourager. Imagine having your nickname mean 
             one who encourages. We could call Jim that, a Barnabas, 
             because he was. He was a son of encouragement.
               How many of us in this room, I wonder, have, in our 
             possession, notes of encouragement from Jim Wright? I 
             would guess a lot of us. Those notes arrived at a time of 
             discouragement, perhaps, or a time of grief or a time of 
             uncertainty or a time of failing confidence or a time of 
             waning courage. A note of encouragement arrived at just 
             the right time.
               What is the value of those notes? I was thinking about 
             that and thought, the law of supply and demand would say 
             those notes are not worth anything at all; there are too 
             many of them on the market. But the value of those notes 
             goes far beyond that. They're valued in a different way. 
             One person told me that she had such a note in a plastic 
             sleeve and carried it with her for a long time.
               What an encourager, not just the notes, but the right 
             words spoken at the right moment.
               We give thanks to God for Jim because Jim was a 
             peacemaker, and we have heard our speakers talk eloquently 
             about his peacemaking efforts. He often quoted Jesus, 
             again, from the Sermon on the Mount: ``Blessed are the 
             peacemakers, for they will be called children of God.''
               He was a peacemaker. He was a man of strong convictions 
             but yet able to see and to respect the perspective of 
             another and to bring people together in ways that make for 
             peace. He was, as a peacemaker, a child of God, as Jesus 
             said.
               Now, peacemaking extended beyond what you may know about 
             to his role as a parent. His daughters, Ginger and Kay, 
             were fighting one time as sisters do, and Jim intervened 
             as the peacemaker. He made each one of them go to her room 
             and write an essay, entitled, ``Why I Love My Sister.'' He 
             held on to those essays for 30 years, and then he gave 
             them back to the girls so they could read them.
               Kay wrote this: ``Well, I suppose she's nice. Her 
             friends seem to like her.''
               Ginger wrote: ``Well, she seems to like my clothes 
             because she wears them all the time.''
               He closed the door after reading those essays and 
             guffawed, as you can imagine.
               Ginger's comment, when she was telling me about it, was, 
             ``And he thought the Sandinistas and Contras were tough.''
               Jim was a servant leader; we know that. His 
             accomplishments were many. In serving his beloved 
             Weatherford and his beloved Fort Worth and his beloved 
             Nation, he was a servant leader. Whether that was as a 
             father, a grandfather, a great-grandfather, a soldier, a 
             State legislator, a Scoutmaster, a Golden Gloves boxing 
             coach, a Sunday school teacher, a church leader, a mayor, 
             a Congressman, a majority leader, a Speaker of the House, 
             a teacher, or a friend, he was a servant leader--again, 
             following the words of Jesus that we are to be servants of 
             one another if we're ever to be called great.
               His life was committed to compassion and justice. I read 
             those wonderful words from Micah a moment ago. Micah was 
             writing to a nation, to his people, who had lost their 
             way, who had lost sight of that which was most important. 
             They had the right words. They had the right rituals. But 
             Micah wrote that that was all empty and reminded them of 
             what was most important that they should have known 
             already.
               He said, ``What has he told you, O mortal, but what is 
             good, and what does the Lord require of you but to do 
             justice, and to love kindness, and to walk humbly with 
             your God.''
               On so many occasions, I saw Jim share his faith; I saw 
             Jim share his values, heard him speak in this pulpit. A 
             number of years ago--I think it was in 2006--my wife, 
             Susan, who was working at William James Middle School as 
             an academic coordinator, shared that with Jim, and he 
             said, ``I used to go to William James Middle School.'' She 
             invited him then to come and speak to the students, and 
             she had Jim Wright Day, and he spent most of the day at 
             the school. He talked with those students, and he had a 
             reception in the library where he shared with them.
               There was a big assembly in the auditorium, and it's one 
             of those old classic schools with a big auditorium, a 
             balcony in the back, and it was packed with middle school 
             kids. I couldn't believe my eyes and my ears when he spoke 
             to them. You could hear a pin drop. He was a master.
               He shared with those kids the story of the Good 
             Samaritan. I remember how he started into that. He said, 
             ``There are a lot of different beliefs.'' He said, ``There 
             is a man who lived a long time ago. His name was Jesus. He 
             was a very good man, and a lot of different people 
             believed a lot of different things about him. But he told 
             some stories that taught some important values, and 
             everybody agrees on that.''
               He told the story of the Good Samaritan. You know the 
             story. The man is beaten and robbed, lying on the side of 
             the road. Along come two people who pass by on the other 
             side, and then comes the Samaritan who is the outsider in 
             the story, and he's the one who helps the man. I remember 
             Jim said to those kids, ``This illustrates really three 
             philosophies of life, the three ways of approaching 
             life.''
               He said, ``There is the philosophy of the thieves, and 
             their philosophy is what's yours is mine, and I'll take 
             it.'' He said, ``That philosophy still lives in attacking 
             others and cheating people and greedy business practices 
             and being envious of others and whatever belittles or 
             injures or degrades another person. It's not always 
             physically violent. We rob others by slander or gossip 
             when we injure their reputations.''
               He said, ``The second philosophy is that of the two men 
             who saw the wounded man but offered no help. Their central 
             operating principle is what is mine is all mine, and I'll 
             keep it for myself. That's less violent, but in its own 
             way it's as selfish as the first.'' He said, ``We can come 
             up with all kinds of excuses to justify not helping those 
             injured along life's highway. We deceive ourselves and 
             ignore their suffering by saying that they're not our 
             responsibility.''
               Then he said, ``Then there's the Samaritan. This was 
             Jesus' model for humanity. He was a stranger and a child 
             of another religious heritage, but he extended himself 
             freely to help one in need. His philosophy is what's mine 
             is yours if you need it, and I'll share it with you.''
               Then he said, ``Jesus told that story in answer to a 
             question. The question was, `Who is my neighbor?' '' Then 
             he told those kids, ``There are these three philosophies 
             of life, and there's only one that makes the world a 
             better place. There's only one that makes your 
             relationships better, and it's that of the Samaritan. And 
             we each can choose how we live.''
               Now, that illustrates so much how Jim lived and how he 
             wanted to pass on that legacy to those who came after him.
               Much has been spoken about his ability to forgive, and I 
             cannot but think, as we meditate on those words of Jesus, 
             the words of Paul about love, Jesus' words about 
             forgiveness, and I can't help but think of the quote that 
             he often gave from Abraham Lincoln.
               Someone once asked Lincoln if he believed in destroying 
             his enemies, and Lincoln replied, ``Of course, I would 
             like to destroy my enemies because I've never wanted 
             enemies. The only way I know satisfactorily to destroy an 
             enemy is to convert him to a friend.''
               The Fetzer Institute has done a lot of research on 
             forgiveness, and they define it in a way that I think is 
             so meaningful, and that is, forgiveness is the difficult, 
             intentional process of letting go of an old reality and 
             opening up one's self to a new one. Jim lived that 
             difficult, intentional process of being able to let go of 
             an old reality and opening up and living a new one.
               One friend emailed me and said, ``He was the poster 
             child for amazing grace.''
               That's the legacy that we celebrate today, and there's 
             so much more that could be said. The challenge for all of 
             us today was how do we winnow it down. But you know what? 
             You carry those stories of Jim; you carry those memories; 
             you carry that legacy. Share it; share it with one 
             another; and do your best. Let us all do our best to live 
             it.
               In the obituary that you were handed as you came in, 
             there is a favorite quote of his from Horace Greeley, 
             ``Fame is a vapor, popularity an accident, riches take 
             wings, those who cheer today may curse tomorrow. Only one 
             thing endures--character.''
               Well done, Jim Wright, good and faithful servant.
               Let us pray.
               Gracious God, we give You thanks for the hope that faith 
             in You gives. For all Your people who have laid hold on 
             that hope, especially we thank You for Your faithful 
             servant Jim Wright. We thank You for all Your goodness to 
             him and for everything in his life that was a reflection 
             of Your love and Your grace. We give You thanks for his 
             faith, for his love for and his commitment to You and to 
             his family and to his friends, to his Nation.
               We give You thanks for his kindness, his passion for 
             justice, his courage, and his strength of character. 
             Loving God, hold us and all who mourn in Your love, and 
             comfort this loving family and comfort us, his friends. 
             Help us all to be ever mindful of Your sustaining 
             presence.
               We offer a prayer in the name of Jesus.
               Amen.
               In just a few moments, the family will process out, and 
             you're invited to Wesley Hall, which is across the garden 
             in that adjacent part of the building, for a reception 
             with the family. Please note the instructions that are on 
             the back of your bulletin, and I invite you to please 
             remain seated, if you will, until the ushers direct you.
               Ginger shared with me one of her favorite memories of 
             the opening of the Presidential display, the new 
             Presidential display in the early 1990s, a room turned 
             into a replica of LBJ's office there in Austin. There was 
             an antique pump organ there signed by all the Members of 
             Congress, and Jake Pickle sat down at the organ and 
             started playing a hymn. The Congressional Members and 
             former Members there started singing the hymn, and it's 
             the hymn that we're going to sing in just a moment after 
             Jim's great-grandchildren give us our benediction.
               A benediction isn't really a prayer. It can be a prayer 
             of course, but traditionally, it is not. The word 
             ``benediction'' literally means ``a good word.'' The 
             great-grandchildren, led by the oldest, Campbell, will 
             give us their good word.
               Will you come now.

             Campbell Brown (Jim Wright's great-granddaughter, 
             accompanied by Jim Wright's great-grandchildren). Hi, my 
             name is Campbell Brown. Everyone on stage with me is a 
             great-grandchild of Jim Wright or, as we like to call him, 
             ``Great Pop.''
               None of us were born when he was in Congress, but we all 
             knew his love for this great country, especially Fort 
             Worth. We are told by many people that he often said, ``I 
             want to make the world a better place for my children, 
             their children, and their children's children.'' Well, 
             that's us. Next to me are the children of the 
             grandchildren. We are the next generation.
               We would like to ask you to honor our Great Pop for the 
             rest of the day by thinking about how you can make the 
             world a better place. As you walk out of the church and 
             for the rest of today, think about peace, not war; think 
             about abundance, not scarcity; think about love, not hate, 
             and hope, not despair.
               Please help us lift Great Pop to his next rollcall by 
             singing the final hymn.
               Thank y'all for coming today.
</pre></body></html>
